App. 1
In the
United States Court of Appeals
For the Seventh Circuit
-----------------------------------------------------------------------

NO. 19-1184
NICHOLE L. RICHARDS,
Plaintiff-Appellant,
v.
PAR, INC., and
LAWRENCE TOWING, LLC,
Defendants-Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Indiana,
Indianapolis Division, No. 1:17-cv-00409-TWP-MPB,
Tanya Walton Pratt, Judge.
-----------------------------------------------------------------------

ARGUED SEPTEMBER 19, 2019 DECIDED MARCH 25, 2020
-----------------------------------------------------------------------

Before SYKES, HAMILTON, and BRENNAN, Circuit
Judges.
SYKES, Circuit Judge. When Nichole Richards defaulted on her car loan, her lender hired PAR, Inc., to
repossess the vehicle. PAR subcontracted with Lawrence Towing to carry out the repossession. Richards
protested when employees of the towing company arrived at her Indianapolis home and tried to take the
car. She ordered them off her property. They

App. 2
summoned the police, and a responding officer handcuffed Richards and threatened her with arrest. The
officer removed the handcuffs after the car was towed
away.
Richards sued PAR and Lawrence Towing for violating the Fair Debt Collection Practices Act (“FDCPA”
or “the Act”). As relevant here, the Act makes it unlawful for a debt collector to take “nonjudicial action” to
repossess property if “there is no present right to
possession of the property claimed as collateral
through an enforceable security interest.” 15 U.S.C.
§ 1692f(6)(A). Richards concedes the validity of the security interest and admits that she defaulted on her
loan. Her argument is that the defendants lacked a
present right to possess the vehicle because Indiana
law authorizes nonjudicial repossession only if the repossession “proceeds without breach of the peace.”
IND. CODE § 26-1-9.1-609. If a breach of the peace occurs, the repossessor must immediately stop and seek
judicial remedies.
The district judge viewed the claim as an improper
attempt to repackage a state-law violation as a violation of the FDCPA and entered summary judgment for
the defendants.
We reverse. Whether a repossessor had a “present
right to possession” for purposes of § 1692f(6)(A) can
be determined only by reference to state law. Based on
the evidentiary record, a reasonable jury could find
that the towing company employees did not have a present right under Indiana law to possess Richards’s

App. 3
vehicle when they seized it. Accordingly, she has a viable FDCPA claim.
I.

Background

Richards obtained a loan from Huntington National Bank to finance her purchase of a used Chevrolet Tahoe. The loan agreement gave the bank a security
interest in the vehicle and the right to take possession
of it if Richards defaulted on her payment obligations.
The agreement also specified that any repossession
would proceed without a breach of the peace.
When Richards later defaulted on her loan payments, Huntington contracted with PAR, Inc., to repossess the Tahoe. PAR in turn subcontracted with
Lawrence Towing to complete the repossession. In the
early-morning hours on February 6, 2017, employees
of Lawrence Towing arrived at Richards’s home in Indianapolis to take possession of the Tahoe. Richards
protested and said she would not voluntarily surrender it. They persisted, and one of them told her they
could “either do this the hard way or . . . do this the
easy way.” Richards ordered them to leave her property. They responded by calling the police.
An officer arrived and Richards continued to object
to the repossession. When she stepped off her porch,
the officer grabbed her arm, handcuffed her, and
threatened her with arrest. He removed the handcuffs
after the Tahoe was towed away.

App. 4
Richards sued PAR and Lawrence Towing alleging
a violation of the FDCPA—more specifically, a violation of § 1692f(6)(A) of the Act, which prohibits debt
collectors from “[t]aking . . . any nonjudicial action to
effect dispossession or disablement of property if there
is no present right to possession of the property claimed
as collateral through an enforceable security interest.”
(Emphasis added.) The basis of her claim is that the
Lawrence Towing employees had no “present right to
possess” the Tahoe when they seized it because section
26-1-9.1-609 of the Indiana Code permits repossession
of collateral without judicial process only if the repossessor “proceeds without breach of the peace.” The complaint also raised several state-law claims.
The judge entered summary judgment for the defendants, construing the claim as an impermissible attempt to use the FDCPA to enforce a violation of state
law. The judge declined to exercise supplemental jurisdiction over the statelaw claims, dismissing them without prejudice. After an unsuccessful motion for
reconsideration, the judge entered final judgment for
the defendants, and this appeal followed.
II.

Discussion

We review a summary judgment de novo, construing the evidence and drawing all reasonable inferences
in favor of the nonmoving party—here, Richards.
Pantoja v. Portfolio Recovery Assocs., LLC, 852 F.3d
679, 682 (7th Cir. 2017).

App. 5
The FDCPA broadly proscribes unfair debt-collection practices: “A debt collector may not use unfair or
unconscionable means to collect or attempt to collect
any debt.” 15 U.S.C. § 1692(f ). This language is obviously quite general, but the statute also sets forth
some specific prohibited debt-collection methods. Immediately after the main clause we just quoted, the
statute says this: “Without limiting the general application of the foregoing, the following conduct is a violation of this section,” id., and a list of eight specific
prohibited acts follows.
This case involves the sixth: a debt collector may
not “[t]ak[e] or threaten[ ] to take any nonjudicial action to effect dispossession or disablement of property
if there is no present right to possession of the property
claimed as collateral through an enforceable security
interest.” Id. § 1692f(6)(A). Repossessors qualify as
debt collectors under the Act. Id. § 1692a(6) (defining
“debt collector” to include a person in “any business the
principal purpose of which is the enforcement of security interests”). Together, these provisions establish
the following rule: a repossession without judicial process violates § 1692f(6)(A) unless the property is collateral under an enforceable security interest and the
repossessor has a “present right to possession” of the
property.
Richards admits that she defaulted on her loan
and that Huntington’s security interest is valid and enforceable. The premise of her claim is that the Lawrence Towing employees lacked a present right to
possess the Tahoe when they seized it because Indiana

App. 6
law permits nonjudicial repossession only if the process doesn’t breach the peace. More specifically, section
26-1-9.1-609 of the Indiana Code provides that a secured party may take possession of collateral without
judicial process only “if it proceeds without breach of
the peace.” If a breach of the peace occurs, the repossessor “must desist and pursue his remedy in court.”
Allen v. First Nat’l Bank of Monterey, 845 N.E.2d 1082,
1086 (Ind. Ct. App. 2006) (quotation marks omitted).
It’s undisputed that the Lawrence Towing employees were pursuing a self-help remedy by seizing the
Tahoe. Drawing inferences in Richards’s favor, a reasonable jury could conclude that a breach of the peace
occurred during the repossession attempt. At that
point the towing company no longer had a present
right to possession, but its employees took Richards’s
Tahoe anyway. The record is factually and legally sufficient to proceed on a claim for violation of
§ 1692f(6)(A).
The defendants counter with a statutory-interpretation argument. As they read § 1692f(6)(A), the requirement of a “present right to possession” means
only that the repossessor must have an enforceable security interest in the property claimed as collateral. On
this reading, the statutory phrase “through an enforceable security interest” modifies “present right to possession.” But that interpretation skips over language
that appears between these two phrases.
Recall the actual text of the statute: debt collectors
may not take nonjudicial action to effect dispossession

App. 7
of property if “there is no present right to possession of
the property claimed as collateral through an enforceable security interest.” § 1692f(6)(A). Under the lastantecedent canon, “a limiting clause or phrase . . .
should ordinarily be read as modifying only the noun
or phrase that it immediately follows.” Lockhart v.
United States, 136 S. Ct. 958, 962 (2016) (quotation
marks omitted); see also ANTONIN SCALIA & BRYAN A.
GARNER, READING LAW: THE INTERPRETATION OF LEGAL
TEXTS 144–46 (2012). Thus, in § 1692f(6)(A), the
phrase “through an enforceable security interest” modifies the phrase directly preceding it: “the property
claimed as collateral.” That is, the phrase “through an
enforceable security interest” identifies the legal mechanism through which the property is “claimed as collateral”; it does not modify “present right to
possession.”
But the more important and indeed decisive point
is that the FDCPA does not define the phrase “present
right to possession.” Repossession rights are governed
by the relevant state’s property and contract law, so in
the absence of an FDCPA-specific rule, we must look to
state law to determine whether a repossessor had a
present right to possess the property at the time it was
seized.
The defendants respond by invoking our decisions
in Beler v. Blatt, Hasenmiller, Leibsker & Moore, LLC,
480 F.3d 470 (7th Cir. 2007), and Bentrud v. Bowman,
Heintz, Boscia & Vician, P.C., 794 F.3d 871 (7th Cir.
2015). A close look at each case shows that neither applies here. In Beler the plaintiff sued a law firm that

App. 8
served her bank with a citation to discover assets in an
effort to execute on a state-court judgment for the law
firm’s client. 480 F.3d at 472. In response to the citation, the bank froze her account. The plaintiff claimed
that the funds in her account came from her social-security disability payments, which are exempt from collection under both the Social Security Act and Illinois
law. She accused the law firm of engaging in unfair or
unconscionable debt-collection practices by trying to
collect against exempt assets. Id. at 473.
We rejected that argument, explaining that
§ 1692f “creates its own rules . . . ; it does not so much
as hint at being an enforcement mechanism for other
rules of state and federal law.” Id. at 474. We observed
that the phrase “unfair or unconscionable” in § 1692f
“is as vague as they come.” Id. But it is not “a piggyback
jurisdiction clause” or a means “to enforce existing
state and federal laws exempting certain assets from
execution.” Id. We concluded that the FDCPA’s broad
prohibition of “unfair or unconscionable” debt-collection
practices should not be read to displace state legislative or judicial rules about the execution of state-court
judgments. Id. at 475.
In a similar vein, the plaintiff in Bentrud argued
that it was unfair or unconscionable in violation of
§ 1692f for the defendant to deviate from arbitration
procedures dictated by contract. 794 F.3d at 875. The
plaintiff ’s claim was premised on a breach of contract
governed by state law. Relying on Beler, we reaffirmed
that § 1692f ’s “vague” language prohibiting unfair or
unconscionable debt-collection practices could not be

App. 9
read to “transform the FDCPA into an enforcement
mechanism for matters governed by state law.” Id. at
876.
Importantly, both Beler and Bentrud dealt with
§ 1692f ’s general clause prohibiting “unfair or unconscionable” debt-collection methods. We held only that
this broad and vague language does not transform
every violation of state or federal law into a violation
of the FDCPA. Nothing about the general phrase “unfair or unconscionable” requires reference to state law,
but elsewhere the FDCPA contains more specific provisions that do call for an inquiry into state law. As
we’ve explained, § 1692f(6)(A) is one of them.
Two cases illustrate the point. In Seeger v. AFNI,
Inc., 548 F.3d 1107, 1111 (7th Cir. 2008), we consulted
Wisconsin law to determine whether methods used by
a cell-phone company to collect debts in that state were
“expressly authorized by the agreement creating the
debt or permitted by law” under § 1692f(1). We could
not determine whether the methods were “permitted
by law” without reference to Wisconsin law. Seeger, 548
F.3d at 1111. A second example is our en banc decision
in Suesz v. Med-1 Sols., Inc., 757 F.3d 636 (7th Cir.
2014) (en banc). That case concerned § 1692i, which requires a debt collector to file a suit in the “judicial district or similar legal entity” where the contract was
signed or where the debtor resides. We held that identifying the “judicial district or similar legal entity” for
purposes of § 1692i requires the identification of the
“smallest geographic area that is relevant for determining venue in the court system in which the case is

App. 10
filed.” Id. at 638. We looked to Indiana law to identify
the smallest “geographic area” for venue purposes because the collection action in question was filed in Indiana. Id. at 640.
This case is similar to Seeger and Suesz. A repossession of property without judicial process violates
§ 1692f(6)(A) unless the property is collateral under an
enforceable security interest and the repossessor has
a “present right to possession.” The statute doesn’t supply its own rule for determining whether a repossessor
had a present right to possess the property when it was
seized; that question can be answered only by reference to state law. In Indiana a repossessor has a present right to take possession of collateral without
judicial process only if he proceeds without a breach of
the peace. Richards has a sound legal theory and
enough evidence to present her § 1692f(6)(A) claim to
a jury.
REVERSED AND REMANDED.

App. 11
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
NICHOLE L. RICHARDS,
Plaintiff,
v.
PAR, INC. and
LAWRENCE TOWING, LLC,
Defendants.

)
)
)
)
)
)
)
)
)
)

Case No. 1:17-cv00409-TWP-MPB

ENTRY ON PENDING MOTIONS
(Filed Jul. 16, 2018)
This matter is before the Court on a Motion for
Summary Judgment (Filing No. 36) filed by Defendants PAR, Inc. (“PAR”) and Lawrence Towing, LLC
(“Lawrence Towing”) (collectively, “Defendants”).
Plaintiff Nichole L. Richards (“Richards”) filed a Complaint with claims under the Fair Debt Collection Practices Act (“FDCPA”), as well as state law claims. (Filing
No. 1.) Richards alleges that Defendants are debt collectors under 15 U.S.C. § 1692a(6), and their repossession of her vehicle was in violation of Indiana Code
§ 26-1-9.1-609. Thus, she argues the Defendants violated the FDCPA. Richards’ state law claims arise out
of the alleged wrongful repossession. Also pending before the Court is a Motion to Stay Arbitration filed
by the Defendants (Filing No. 43), and a Motion to

App. 12
Intervene, filed by Huntington Bancshares, Inc. (“Huntington”) (Filing No. 47). For the reasons that follow,
the Court grants the Defendants’ Motion for Summary Judgment, and denies the Motions to Stay Arbitration and to Intervene.
I.

BACKGROUND

The following facts are not necessarily objectively
true, but as required by Federal Rule of Civil Procedure 56, the facts are presented in the light most favorable to Richards as the non-moving party. See
Zerante v. DeLuca, 555 F.3d 582, 584 (7th Cir. 2009);
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255
(1986). On February 26, 2015, Richards purchased a
used 2010 Chevrolet Tahoe (the “Tahoe”) from Tru
Worth Auto for $26,750.00. (Filing No. 1 at 1.) Huntington National Bank financed the purchase and obtained
a lien on the vehicle. (Filing No. 44-1 at 2.) Richards
missed payments on the Tahoe and defaulted under
the terms of the Personal Loan Agreement (“Agreement”) with Huntington. Id. The Agreement provided
that Huntington had the right to repossess the Tahoe
in the event that Richards defaulted on her payments.
Id.
Huntington contracted with PAR to repossess the
Tahoe, and PAR subcontracted the job to Lawrence
Towing. (Filing No. 1 at 2.) On December 6, 2016, Lawrence Towing went to Richards’ home located in Indianapolis, Indiana to repossess the Tahoe. (Filing No.
38-1 at 6.) Because the Tahoe had a trailer attached to

App. 13
it and was not readily accessible, Lawrence Towing had
to make contact with Richards to accomplish the repossession. Id. at 3. Richards refused to give Lawrence
Towing her vehicle. (Filing No. 38-1 at 8.) The following
exchange occurred between Richards and the Lawrence Towing employee:
And he said, well, we can either do this the
hard way or we can do this the easy way. And
I said what’s the hard way? He said the hard
way is I call the police and they make you give
me the vehicle. And I said, well, I guess we’re
going to have to do this the hard way because
I’m not giving you my vehicle. I’m going to
have to ask you to leave my property. He said
that’s fine and so him and the younger gentleman walked off my property and they got in
their vehicle and they moved up into the front
of my driveway and turned off the engine, got
out and he got on his cell phone and he was—
presumably the police, but he was talking to
somebody.
(Filing No. 38-1 at 8-9). Ultimately, the police arrived
and Richards continued to verbally refuse the repossession. Id. at 10. When the Lawrence Towing employee went to unhook the trailer attached to the
Tahoe, Richards stepped off of her porch and was put
in handcuffs by the officer. Id. at 11. Richards was not
taken into custody, however, the Tahoe was towed away
and repossessed. (Filing No. 1 at 3.) On February 9,
2017, Richards filed this action against the Defendants
in federal court. (Filing No. 1.) Her claims for relief are
violation of the FDCPA, Replevin, and violation of the

App. 14
Indiana Crime Victims Relief Act (in particular Indiana Code § 35- 43-2-2 and § 35-43-4-3, Criminal Trespass). Id. at 3-5. Richards intentionally did not include
Huntington in this lawsuit because Huntington’s contract contained a binding Arbitration Provision that
would have allowed Huntington to require Richards’
claims to be arbitrated. (Filing No. 52-1 at 1.)
On April 16, 2018, Richards filed an Amended
Claim for Arbitration against Huntington with JAMS
(formerly known as Judicial Arbitration and Mediation
Services, Inc.) premised on factual averments identical
to those asserted in this action. (Filing No. 44-3.) An
arbitration was convened on May 31, 2018, during
which Huntington objected to Richards’ efforts to adjudicate this matter in two different forums. (Filing No.
47 at 3.) Ultimately, JAMS cancelled the arbitration
following Huntington’s assertion that JAMS was ineligible to administer the arbitration as its policies and
procedures were materially inconsistent with Huntington’s arbitration provision. Id. Thereafter, on June
7, 2018, Huntington filed a Motion to Intervene in the
instant action, pursuant to Federal Rule of Civil Procedure 24(a) and 24(b) (Filing No. 47).
II.

LEGAL STANDARDS

A. Summary Judgment Standard
The purpose of summary judgment is to pierce
the pleadings and to assess the proof in order to see
whether there is a genuine need for trial.” Matsushita
Electric Industrial Co. v. Zenith Radio Corp., 475 U.S.

App. 15
574, 587 106 S.Ct. 1348 (1986). Federal Rule of Civil
Procedure 56 provides that summary judgment is appropriate if “the pleadings, depositions, answers to interrogatories, and admissions on file, together with the
affidavits, if any, show that there is no genuine issue
as to any material fact and that the moving party is
entitled to a judgment as a matter of law.” Hemsworth
v. Quotesmith. Com, Inc., 476 F.3d 487, 489-90 (7th Cir.
2007). In ruling on a motion for summary judgment,
the court reviews “the record in the light most favorable to the nonmoving party and draw[s] all reasonable
inferences in that party’s favor.” Zerante v. DeLuca, 555
F.3d 582, 584 (7th Cir. 2009) (citation omitted). However, “[a] party who bears the burden of proof on a particular issue may not rest on its pleadings, but must
affirmatively demonstrate, by specific factual allegations, that there is a genuine issue of material fact that
requires trial.” Hemsworth, 476 F.3d at 490 (citation
omitted). “In much the same way that a court is not
required to scour the record in search of evidence to
defeat a motion for summary judgment, nor is it permitted to conduct a paper trial on the merits of a
claim.” Ritchie v. Glidden Co., 242 F.3d 713, 723 (7th
Cir. 2001) (citation and internal quotations omitted).
Finally, “neither the mere existence of some alleged
factual dispute between the parties nor the existence
of some metaphysical doubt as to the material facts is
sufficient to defeat a motion for summary judgment.”
Chiaramonte v. Fashion Bed Grp., Inc., 129 F.3d 391,
395 (7th Cir. 1997) (citations and internal quotations
omitted).

App. 16
B. Motion to Intervene Standard
Federal Rule of Civil Procedure 24 governs a
party’s ability to intervene in a cause of action. Rule
24(a)(2) states that a party may intervene as a matter
of right when he “claims an interest relating to the
property or transaction that is the subject of the action,
and is so situated that disposing of the action may as
a practical matter impair or impede the movant’s ability to protect its interest, unless existing parties adequately represent that interest.” Rule 24(b)(2) states
that a party may be allowed to intervene if he “has a
claim or defense that shares with the main action a
common question of law or fact.”
A party seeking to intervene as a matter of right
under Rule 24(a)(2) must show: (1) timeliness of the
application, (2) an interest relating to the subject matter of the main action, (3) potential impairment of that
interest if the action is resolved without him, and (4)
that the interest cannot be adequately protected by the
existing parties. See Reid L. v. Ill. State Bd. of Educ.,
289 F.3d 1009, 1017 (7th Cir. 2002); Commodity Futures Trading Comm’n v. Heritage Capital Advisory
Servs., Ltd., 736 F.2d 384, 386 (7th Cir. 1984). If the
applicant does not carry his burden of satisfying each
of these requirements, Keith v. Daley, 764 F.2d 1265,
1268 (7th Cir. 1985), the court must deny the application. See United States v. BDO Seidman, 337 F.3d 802,
808 (7th Cir. 2003); United States v. 36.96 Acres of
Land, 754 F.2d 855, 858 (7th Cir. 1985).

App. 17
“When deciding a motion for permissive intervention under Rule 24(b), the ‘court must consider three
requirements: (1) whether the petition was timely; (2)
whether a common question of law or fact exists; and
(3) whether granting the petition to intervene will unduly delay or prejudice the adjudication of the rights of
the original parties.’ ” Dave’s Detailing, Inc. v. Catlin
Ins. Co., No. 1:11-cv-1585-RLY-DKL, 2012 WL 5377880,
at *2 (S.D. Ind. Oct. 31, 2012) (quoting Pac for Middle
Am. v. State Bd. of Elections, No. 95–c–827, 1995 WL
571893, at *3 (N.D. Ill. Sept. 22, 1995)).
III.

DISCUSSION

As stated earlier, Richards does not dispute that
she was in default on her car loan. She notes however,
that Indiana Code § 26-1-9.1-609 provides that a secured creditor may repossess the collateral after default “if it proceeds without a breach of the peace.”
Richards argues that there is a genuine issue of material fact, at the least, as to whether she objected to the
repossession and therefore whether the subsequent repossession was in breach of the peace. The Court will
first address the summary judgment motion.
A. Motion for Summary Judgment
Lawrence Towing filed a Motion for Summary
Judgment alleging that Richards’ FDCPA claim is not
an enforcement mechanism for state law disputes,
therefore, this Court should grant its Motion for Summary judgment on the FDCPA claim and dismiss any

App. 18
remaining state law claims pursuant to 28 U.S.C.
§ 1367(c). (Filing No. 37 at 4, 8.) Richards responds
that numerous cases rely upon state law to establish a
violation of the FDCPA. (Filing No. 38 at 3.) The material facts are largely not in dispute. (Filing No. 38 at 2.)
(“Plaintiff does not take issue with any of Defendants’
facts in their Statement of Material Facts Not in Dispute.”) Thus, the dispositive question regarding the
FDCPA is a legal one.
Richards proposes that a trial in this case is required because the material issue of fact in this case is
whether or not the repossession involved a breach of
the peace. Id. The parties agree that “breach of the
peace repossession” in violation of Indiana Code § 261-9.1-609, is a state law remedy. However, they disagree on whether courts may look to state law, i.e. the
definition of breach of the peace, to determine if
§ 1692f(6)(A) of the FDCPA was also violated. Section
1692f(6)(A) prohibits the “[t]aking or threatening to
take any nonjudicial action to effect dispossession or
disablement of property if there is no present right to
possession of the property claimed as collateral
through an enforceable security interest.” 15 U.S.C.
§ 1692f. It is also undisputed that Huntington held a
present right to possession based on the fact that Richards defaulted on her payments under the Agreement
and Huntington held a security interest in the Tahoe.
(Filing No. 44-1 at 2; Filing No. 44-3 at 2.)
“The FDCPA is not an enforcement mechanism for
matters governed elsewhere by state and federal law.”
Bentrud v. Bowman, Heintz, Boscia & Vician, P.C., 794

App. 19
F.3d 871, 875 (7th Cir. 2015). Beler v. Blatt, Hasenmiller,
Leibsker & Moore, LLC is instructive on the scope of
15 U.S.C. § 1692f. 480 F.3d 470, 473 (7th Cir. 2007). In
Beler, the plaintiff sued defendants after the defendants served a citation that caused her bank to freeze
her checking account for three weeks. In freezing the
account, the plaintiff was unable to access her Social
Security benefits which are exempt from attachment
under both Social Security regulations and Illinois law.
Thus, the plaintiff advanced a theory that violation of
Social Security regulations and Illinois law regarding
the exempted Social Security benefits was also a violation of § 1692f. The Seventh Circuit advised against expanding the scope of the FDCPA through § 1692f. “This
is not a piggyback jurisdiction clause. If the Law Firm
violated the Social Security Act, that statute’s rules
should be applied. Likewise if the Law Firm violated
Illinois law. Section 1692f does not take a state-law
dispute and move it to federal court.” Id. at 424. More
recently, the Seventh Circuit considered another state
law, an arbitration provision in a credit card agreement, in the context of § 1692f. Again, the Seventh Circuit held that it would not “transform the FDCPA into
an enforcement mechanism for matters governed by
state law.” Bentrud, 794 F.3d at 876.
Richards refers to the Seventh Circuit’s holding
that the “FDCPA is not an enforcement mechanism for
state law” as dicta and points to FDCPA violations that
have relied upon state law such as determining the relevant statute of limitations and the charging of additional amounts on top of the debt itself such as

App. 20
attorney fees. (Filing No. 38 at 4.) Defendants respond
that the distinction between the present cases and
Richards’ citation to other cases that rely on state law
in addition to the FDCPA, is that Richards “is attempting to use the FDCPA to enforce independent legal obligations not mandated by the FDCPA.” (Filing No. 40
at 3.) Although Beler and Bentrud did not consider the
state law regarding breach of the peace, the relief that
Richards seeks is an independent state law regarding
legal collection activity under Indiana law that would
amount to transforming the FDCPA into an enforcement mechanism for state law. Additionally, Richards’
claims concern the very section of the FDCPA at issue
in Beler and Bentrud.
Indiana Code § 26-1-9.1-609 provides that after
default, a secured party may take possession of the collateral without judicial process, if it proceeds without
breach of the peace. Indiana courts have interpreted
breach of the peace to include “all violations of public
peace, order, or decorum. A breach of the peace is a violation or disturbance of the public tranquility or order,
and the offense includes breaking or disturbing the
public peace by any riotous, forceful, or unlawful proceedings.” Census Fed. Credit Union v. Wann, 403
N.E.2d 348, 350 (Ind. Ct. App. 1980). Unlike the district
court cases cited by Richards which analyzed whether
defendants had a ‘present right’ to collateral via valid
security interests, there is no dispute that the Defendants in this case did have the ‘present right’ to the
Tahoe, based on the FDCPA’s definition. Richards admits that she had defaulted on her car loan payments.

App. 21
(See Filing No. 38 at 6-7; Filing No. 37-1 at 2-3) (citing
Purkett v. Key Bank USA, N.A., 2001 U.S. Dist. LEXIS
6126, *5 (N.D. Ill. May 9, 2001); Clark v. Auto Recovery
Bureau, Inc., 889 F. Supp. 543, 546 (D.Conn. 1994)).
Similar to the state law issues considered in Beler and
Bentrud, any violation for Defendants breaching of
the peace when she was handcuffed and threatened
with arrest during the repossession, is independently
a matter of state law. Richards may not use the FDCPA
to enforce a remedy governed under state law. The
FDCPA requires an enforceable security interest to
effect dispossession, which is present as evidenced by
the Agreement. Accordingly, Defendants’ Motion for
Summary Judgment on Richards’ FDCPA claim is
granted.
Richards also filed state law claims for Replevin
and violation of the Indiana Crime Victims Relief Act.
If the district court has original jurisdiction over an action, it may also exercise supplemental jurisdiction
over “all other claims that are so related to claims in
the action . . . that they form part of the same case or
controversy . . . ”. 28 U.S.C. § 1367(a). If the underlying
federal claim that supported supplemental jurisdiction
is dismissed, courts have discretion in deciding
whether to continue to exercise jurisdiction over the
remaining state law claims. 28 U.S.C. § 1367(c). The
court may decline to exercise supplemental jurisdiction if the court has dismissed all claims over which it
has original jurisdiction. Id. The dismissal of federal
claims do not require the court to decline to exercise
supplemental jurisdiction over state law claims.

App. 22
However, the court “will normally relinquish [supplemental] jurisdiction over the state-law claims.” Sullivan v. Conway, 157 F.3d 1092, 1095 (7th Cir. 1998).
The Court’s jurisdiction over the state law claims
is based on supplemental jurisdiction under 28 U.S.C.
§ 1367(a). Because the Court has granted summary
judgment in favor of Defendants on the FDCPA claim
conferring the Court’s original jurisdiction, in the interests of judicial economy, convenience, fairness, and
comity, the Court declines to exercise supplemental jurisdiction over the remaining state law claims. Accordingly, the state law claims are dismissed without
prejudice.
B. Motion to Stay
On May 24, 2018, the Defendants filed a Motion to
Stay Arbitration, (Filing No. 43), on the basis that
Richards waived her right to arbitration when she filed
her Complaint in this Court. Richards responds that
arbitration was initiated against non-party Huntington pursuant to a binding arbitration provision in the
Agreement. (Filing No. 52 at 1; Filing No. 52-1 at 17.)
On April 9, 2018, Huntington and Richards agreed to
arbitrate their matter. (Filing No. 52-1 at 18.) Because
neither Lawrence Towing nor PAR have standing to
stay Huntington and Richards’ pending agreed upon
(and binding) arbitration, the Court denies the Defendants’ Motion to Stay Arbitration.

App. 23
C. Motion to Intervene
On June 7, 2018, Huntington filed a Motion to Intervene, (Filing No. 47), in the present action on the
issue of “whether Richards is entitled to any recovery
for an alleged breach of the peace repossession by Lawrence Towing LLC and PAR, Inc.”. Id. at 4. Richards
asserts that Huntington’s motion to intervene would
be futile because the arbitration provision in the
Agreement is binding, and Huntington’s motion is not
timely. She argues that Huntington knew of her claims
against it in April 2017 and of this lawsuit in September 2017, yet it did not move to intervene until June
2018, two months prior to the August 27, 2018 jury
trial. (Filing No. 52 at 8-9.) She further contends that
Huntington will not be prejudiced by not allowing it to
intervene because it has the arbitration forum that it
chose in which to defend its liability. Id.
As noted above, this Court has declined to exercise
supplemental jurisdiction over the state law claims,
and Richards may not pursue breach of the peace—a
state law claim—pursuant to the FDCPA. Thus, Richards is correct in that intervention as a right or permissive would be futile given the disposition of the
present case and the underlying basis for Huntington’s
request to intervene. Additionally, the arbitration provision was included in Huntington’s contract to apply
to any claims between Richards and Huntington. (Filing No. 52-1 at 17.) Richards has elected to arbitrate
her claims against Huntington pursuant to the Agreement, and arbitration is already underway. (Filing
No. 52-1 at 18.) As Richards noted, Huntington

App. 24
significantly delayed in requesting intervention, over a
year after Richards filed the present complaint against
the Defendants, and the request occurred after Huntington received the JAMS ruling that the arbitration
provision bound Huntington to arbitration. Id. at 20.
Accordingly, the Court denies Huntington’s Motion to
Intervene.
IV.

CONCLUSION

For the foregoing reasons, Defendants’ Motion for
Summary Judgment (Filing No. 36) is GRANTED on
the federal claim asserted by Richards. The Court declines supplemental jurisdiction over the state law
claims and those claims are dismissed without prejudice. The Defendants’ Motion to Stay Arbitration is
DENIED. (Filing No. 43). Huntington’s Motion to Intervene (Filing No. 47) is DENIED, and Huntington is
terminated as an intervenor in this action. The
Clerk is directed to remove Huntington as a defendant in the caption, as they were never a
named party.
The Court will issue Final Judgment under separate order.
SO ORDERED.
Date: 7/16/2018

/s/ Tanya Walton Pratt
TANYA WALTON PRATT,
JUDGE
United States District Court
Southern District of Indiana

App. 25
DISTRIBUTION:
Robert E. Duff
INDIANA CONSUMER LAW GROUP
robert@robertdufflaw.com
Gregory M. Bokota
GARAN LUCOW MILLER P.C.
GBokota@garanlucow.com
Courtney A. Krause
GARAN LUCOW MILLER, P.C.
ckrause@garanlucow.com
Nicholas Knowlson Rohner
WELTMAN WEINBERG & REIS LPA
nrohner@weltman.com

App. 26
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
NICHOLE L. RICHARDS,
Plaintiff,
v.
PAR, INC., and
LAWRENCE TOWING, LLC,
Defendants.

)
)
)
) Case No. 1:17-cv) 00409-TWP-MPB
)
)
)

ENTRY ON RICHARDS’
MOTION TO RECONSIDER
(Filed Dec. 27, 2018)
This matter is before the Court of a Motion to Reconsider filed pursuant to Federal Rule of Civil Procedure 59(e) by Plaintiff Nichole L. Richards. (Filing
No. 55.) On July 16, 2018, the Court granted PAR,
Inc.’s and Lawrence Towing, LLC’s (collectively, “Defendants”) Motion for Summary Judgment, finding
Richards did not have a valid claim under the Fair
Debt Collection Practices Act (“FDCPA”) because the
Defendants had a present right to repossess her Chevrolet Tahoe and any claim that they breached the peace
while doing so was an independent matter of state law.
(Filing No. 53.) The Court declined to exercise supplemental jurisdiction over Richards’ state law claims and
dismissed those claims without prejudice. Id. at 11.
The Court entered final judgment pursuant to Fed. R.
Civ. Pro. 58. (Filing No. 54.) Richards now asks the

App. 27
Court to reverse its summary judgment order and enter an order denying Defendants’ Motion for Summary
Judgment (Filing No. 56 at 15). For the following reasons, the Court denies Richards’ Motion to Reconsider.
I.

LEGAL STANDARD

Although motions to reconsider are not specifically
authorized by the Federal Rules of Civil Procedure,
courts in the Seventh Circuit apply Rule 59(e) or Rule
60(b) standards to these motions. Smith v. Utah Valley
Univ., 2015 U.S. Dist. LEXIS 70271, at *3–4 (S.D. Ind.
June 1, 2015). A motion to alter or amend under Rule
59(e) “must be filed no later than 28 days after the
entry of the judgment.” Fed. R. Civ. P. 59(e). If timely
filed, a motion styled as a motion to reconsider should
be considered under Rule 59(e). Kiswani v. Phoenix
Sec. Agency, Inc., 584 F.3d 741, 742 (7th Cir. 2009).
The Court issued its Order on Defendants’ Motion for
Summary Judgment on July 16, 2018 (Filing No. 53).
Richards filed her “Motion to Reconsider” (Filing No.
55) on August 11, 2018, twenty-six days after the
Court’s Order. Therefore, the Court will analyze the
Motion as a motion to alter or amend under Rule 59(e).
The purpose of a motion to alter or amend judgment under Rule 59(e) is to ask the court to reconsider
matters “properly encompassed in a decision on the
merits.” Osterneck v. Ernst & Whinney, 489 U.S. 169,
174 (1989). “A Rule 59(e) motion will be successful only
where the movant clearly establishes: (1) that the
court committed a manifest error of law or fact, or

App. 28
(2) that newly discovered evidence precluded entry of
judgment.” Cincinnati Life Ins. Co. v. Beyrer, 722 F.3d
939, 954 (7th Cir. 2013) (citation and quotation marks
omitted). Relief pursuant to a Rule 59(e) motion to
alter or amend is an “extraordinary remed[y] reserved
for the exceptional case.” Foster v. DeLuca, 545 F.3d
582, 584 (7th Cir. 2008). A Rule 59(e) motion may be
used “to draw the district court’s attention to a manifest error of law or fact or to newly discovered evidence.” United States v. Resnick, 594 F.3d 562, 568 (7th
Cir. 2010). A manifest error “is not demonstrated by the
disappointment of the losing party. It is the wholesale
disregard, misapplication, or failure to recognize controlling precedent.” Oto v. Metropolitan Life Ins. Co.,
224 F.3d 601, 606 (7th Cir. 2000) (citation and quotation marks omitted). Furthermore, “a Rule 59(e) motion is not an opportunity to relitigate motions or
present arguments, issues, or facts that could and
should have been presented earlier.” Brownstone
Publ’g, LLC v. AT&T, Inc., 2009 U.S. Dist. LEXIS
25485, at *7 (S.D. Ind. Mar. 24, 2009).
II.

DISCUSSION

Richards’ position is that “the court committed a
manifest error of law or fact in failing to apply the
unanimous interpretation of [15 U.S.C.] § 1692(f )(6)
and in overlooking the terms of the parties’ agreement.” (Filing No. 56 at 4.) Section 1692f(6)(A) makes
the following a violation of federal law: “Taking or
threatening to take any nonjudicial action to effect dispossession or disablement of property if . . . there is no

App. 29
present right to possession of the property claimed as
collateral through an enforceable security interest.” In
its Order on Defendants’ Motion for Summary Judgment, the Court found that Defendants had an enforceable security interest in the Chevrolet Tahoe, and thus
they had a present right to possession and did not violate § 1692f(6)(A). Richards disagrees with the Court’s
reading of the statute.
Her understanding is that Defendants lost their
present right to repossession by breaching the peace
under Indiana law. (Filing No. 56 at 5.) According to
Richards, a § 1692f(6) present right to repossession,
even when it is supported by an enforceable security
interest, can be extinguished by a violation of a state
self-help statute. Id. at 6. She cites as authority for this
assertion one federal Court of Appeals opinion from
the Eighth Circuit and numerous District Court orders
from within the Seventh Circuit and elsewhere. Id. at
7-11. Richards also argues that the Court of Appeals
for the Seventh Circuit has consulted state law in
FDCPA cases unrelated to breach of the peace and that
other provisions of the FDCPA require courts to examine state law. Id. at 11-13. Last, Richards argues that,
independent of state law, a provision in her loan agreement in which her creditor agreed not to breach the
peace when taking possession of any collateral property also extinguishes Defendants’ present right to repossession under § 1692f(6)(A). Id. at 13-14.
In response, Defendants argue that when a claim
for recovery under the FDCPA is based solely on the
premise that the defendant violated state law, the

App. 30
FDCPA claim is dismissed, allowing the plaintiff to
pursue the remedy contemplated by the state law that
the defendant violated. (Filing No. 58 at 4.) Defendants
cite Montgomery v. Huntington Bank, 346 F.3d 693 (6th
Cir. 2003), in which the Court of Appeals for the Sixth
Circuit declined to use state law as a reference point
for interpreting the FDCPA. Id. at 3. Defendants disagree that the text of the loan agreement supports a
FDCPA claim, arguing that the Seventh Circuit disapproved of using contractual provisions to formulate a
§ 1692f violation in Bentrud v. Bowman, 794 F.3d 871
(7th Cir. 2015).
A. State Law
The Court of Appeals for the Seventh Circuit has
not directly ruled on this issue, but it has addressed
the issue several times, most directly in Beler v. Blatt,
Hasenmiller, Leibsker & Moore, LLC, 480 F.3d 470 (7th
Cir. 2007). In that case, like in this one, a debtor admitted that she violated a security agreement by failing to
make payments, but claimed that the defendant violated the FDCPA. Beler argued that defendants, by
freezing her checking account, violated the provision of
§ 1692f that prohibits debt collectors from using “any
unfair or unconscionable means to collect or attempt
to collect any debt.” 15 U.S.C. § 1692f. Beler asked the
court for a broad ruling declaring that violation of any
other rule of positive law by a debt collector was unfair
or unconscionable under the FDCPA. The Court of Appeals declined to issue that broad holding. In doing so,
it noted that

App. 31
§ 1692f creates its own rules (or authorizes
the courts and the FTC to do so); it does not so
much as hint at being an enforcement mechanism for other rules of state and federal law.
This is not a piggyback jurisdiction clause. If
the Law Firm violated the Social Security Act,
that statute’s rules should be applied. Likewise, if the Law Firm violated Illinois law. Section 1692f does not take a state-law dispute
and move it to federal court, even though the
amount in controversy is well under $75,000
and the parties are not of diverse citizenship.
480 F.3d at 474.
Although not at issue in Beler, the Court of Appeals addressed § 1692f(6) in dicta:
Subsection (6) is especially interesting. It says
that creditors may not take “nonjudicial” actions that seize property exempt by law. The
implication is that state judicial proceedings
are outside the scope of § 1692f. State judges
may decide how their judgments are to be
collected. This does not necessarily mean that
the FTC must steer clear of the subject, but it
certainly implies that federal judges ought
not use this ambulatory language to displace
decisions consciously made by state legislatures and courts about how judgment creditors collect judgments entered under state
law.
Id. at 475. The Court of Appeals’ language suggests
that when a state legislature has crafted a self-help
repossession statute and prescribed a remedy, federal

App. 32
courts should not usurp that remedy by resolving selfhelp repossession disputes through the FDCPA.
Richards cites numerous cases from the Northern
District of Illinois and one case from the Eastern District of Wisconsin in which courts looked at state law
to determine whether a defendant had extinguished
his right to possession by engaging in extrajudicial
self-help. E.g., Bednarz v. Lovald, 2016 WL 6304705
(E.D. Wis. Oct. 27, 2016); Barnes v. Nw. Repossession,
LLC, 210 F. Supp. 3d 954 (N.D. Ill. 2016). These courts’
choice to consult state law is understandable. The
FDCPA does not define “present right to possession,”
and the courts must derive its meaning from somewhere. But just as the phrase “present right to possession” is vague, so is the phrase “unfair and
unconscionable,” the subject of Beler.1 Yet the Beler
court resisted the urge to resort to state law, instead
hoping that federal common law or a Federal Trade
Commission advisory opinion would provide the answer. Beler at 473.
The Indiana Code allows a secured party to “take
possession of the collateral” after default “without judicial process, if it proceeds without breach of the
1

“The statute provides that ‘[a] debt collector may not use
unfair or unconscionable means to collect or attempt to collect any
debt.’ What is ‘unfair or unconscionable’? The statute does not
say. Although the FDCPA does authorize the Federal Trade Commission to issue advisory opinions that bear on the question at
hand. Nor has it issued any helpful opinions in enforcement proceedings under 15 U.S.C. § 1692a.” 480 F.3d at 473 (brackets original).

App. 33
peace.” Ind. Code § 26-1-9.1-609. If a secured party
fails to comply, it “is liable for damages in the amount
of any loss caused.” Ind. Code § 26-1-9.1-625(b). Additionally, “a court may order or restrain collection, enforcement, or disposition of collateral on appropriate
terms and conditions.” Id. at § 26-1-9.1-625(a). Indiana
has installed a procedure for debt collection or repossession and a remedy for when that procedure is ignored. In accordance with Beler, this Court will not use
the “ambulatory language” of the FDCPA “to displace
decisions consciously made by state legislatures and
courts” about how creditors collect debts under state
law. 480 F.3d at 475. Thus, the Court denies Richards’
Motion to Reconsider on these grounds.
B. The Loan Agreement
Richards’ second argument fails for the same reason. Richards argues that her loan agreement prohibited her creditor from breaching the peace when it
repossessed her collateral, and thus Defendants forfeited their present right to possession under the
FDCPA when they breached the peace. But just as the
FDCPA will not make a federal claim out of a state
claim, it will not make a federal claim out of a breach
of contract claim.
The Court of Appeals said as much in Bentrud v.
Bowman, Heintz, Boscia & Vician, P. C., 794 F.3d 871
(7th Cir. 2015). Relying on Beler, Bentrud declared
“The FDCPA is not an enforcement mechanism for
matters governed elsewhere by state and federal law.”

App. 34
Bentrud at 875. In Bentrud, the plaintiff argued that it
was “unfair” or “unconscionable” under the FDCPA for
defendants to move for summary judgment against
him in a state court debt collection action because the
contract at issue—his credit card agreement—allowed
him to pursue arbitration. The Seventh Circuit reminded Bentrud that if the defendants violated his
contract by pursuing litigation after he had elected to
proceed in arbitration, “his remedy sounds in breach of
contract, not the FDCPA.” Id.
That is the case for Richards as well. If Defendants
disregarded their contractual obligations by breaching
the peace, Richards has a state claim for breach of contract, not a federal claim under the FDCPA. For that
reason, the Court denies her Motion to Reconsider on
this second ground.
III.

CONCLUSION

For the foregoing reasons, Richards’ Motion to Reconsider pursuant to Federal Rule of Civil Procedure
59(e) (Filing No. 55) is DENIED.
SO ORDERED.
Date:

12/27/2018
/s/ Tanya Walton Pratt
TANYA WALTON PRATT, JUDGE
United States District Court
Southern District of Indiana

App. 35
DISTRIBUTION:
Robert E. Duff
INDIANA CONSUMER LAW GROUP
robert@robertdufflaw.com
Gregory M. Bokota
GARAN LUCOW MILLER P.C.
GBokota@garanlucow.com
Courtney A. Krause
GARAN LUCOW MILLER, P.C.
ckrause@garanlucow.com

App. 36
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
April 27, 2020
Before
DIANE S. SYKES, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
No. 19-1184
NICHOLE L. RICHARDS,
Plaintiff-Appellant,
v.

Appeal from the United
States District Court
for the Southern
District of Indiana,
Indianapolis Division.

PAR, INC., and
LAWRENCE TOWING, LLC, No. 1:17-cv-00409Defendants-Appellees. TWP-MPB
Tanya Walton Pratt,
Judge.
ORDER
(Filed Apr. 27, 2020)

On consideration of the petition for rehearing and
for rehearing en banc, no judge in active service has
requested a vote on the petition for rehearing en banc,
and all judges on the original panel have voted to deny
rehearing. It is therefore ordered that the petition for
rehearing and for rehearing en banc is DENIED.

